GR-90-98-002
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANT TO THE KEARNY, ARIZONA
POLICE DEPARTMENT
GR-90-98-002
DECEMBER 1997
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of one
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Kearny Arizona Police Department (KPD). The KPD received
a grant of $67,653 to hire one sworn officer under the Universal Hiring Program (UHP). The
purpose of the additional officer under the UHP program is to enhance community policing
efforts. 
Generally, KPD properly managed the COPS grant:


- Budgeted funds for police services and the number of officers increased from the
    level of FY 1995, the baseline year for the UHP grant awarded.
- Funds provided under the grant were used to enhance KPD community policing efforts.
    The number of officers performing community policing activities increased by the number of
    officers funded under the grant.


However, KPD failed to comply with the following grant conditions:


- The Financial Status Reports for June 30, 1996, through June 30, 1997, did not
    accurately report all allowable costs. 
- Questioned costs totaling $2,742 were charged to the grant. These questioned costs
    included: unsupported or erroneous charges; overtime and unauthorized accrued vacation;
    and salary and benefits paid when the grant funded position was vacant. 


 
#####